Audit Report - Use of Equitable Sharing Revenues by the
New Mexico Department of Public Safety, Santa Fe, New Mexico

Use of Equitable Sharing Revenues by the
New Mexico Department of Public Safety, Santa Fe, New Mexico

Audit Report GR-60-05-010


July 2005
Office of the Inspector General


Executive Summary





The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, has completed an audit of the use of DOJ equitable sharing revenues by the New Mexico Department of Public Safety, State Police Division (NMDPS).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.1 During the period of July 1, 2002, through June 30, 2004, the NMDPS was awarded DOJ equitable sharing revenues totaling $2,661,734 and property valued at $97,292 to support law enforcement operations.

We reviewed the NMDPS compliance with six essential equitable sharing guidelines and found that the NMDPS generally complied with the guidelines.  However, we found weaknesses in the following three areas:

The Annual Certification Reports submitted for FY 2003 and 
FY 2004 contained inaccurate information and were not complete.

	Assets that were directly shared or that were purchased with equitable sharing funds were not always correctly entered in the NMDPS inventory records.

	We identified $56,558 in questioned costs related to expenditures of equitable sharing revenues for unallowable purposes.  We also identified an additional $14,525 expenditure that was unsupported.

The results of our work are discussed in greater detail in the Findings and Recommendations section of the report.  The audit objectives, scope, and methodology appear in Appendix I.

We also discussed the results of our audit with NMDPS officials and have included their comments in the report, as applicable.  

   



Footnotes

  The DOJ asset forfeiture program has three primary goals:  (1) to punish and deter criminal activity by depriving criminals of property used or acquired through illegal activities; (2) to enhance cooperation among foreign, federal, state, and local law enforcement agencies through equitable sharing of assets recovered through this program; and, as a by-product, (3) to produce revenues to enhance forfeitures and strengthen law enforcement.